No. 20-6444

IN THE SUPREME COURT OF THE UNITED STATES

RONNIE EUGENE FUSTON,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.

CERTIFICATE OF SERVICE

I, Jennifer L. Crabb, a member of the Bar of this Court, hereby certifies that 1
copy of the foregoing was mailed by first-class, postage prepaid mail, to the counsel for
Petitioner:
Andrea Digilio Miller
Counsel of Record
800 N Harvey Ave.
Oklahoma City, OK 73102
s/ Jennifer L. Crabb
Jennifer L. Crabb
ASSISTANT ATTORNEY GENERAL

Dated: December 28, 2020

